February 28, 2002

PATRICK R. DONAHOE
CHIEF OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:      Management Advisory – Review of the Postal Service’s Communication
              of Employee Safety and Health Issues at Selected Locations
              (Report Number LH-MA-02-002)

This self-initiated management advisory presents the results of our review of the Postal
Service’s communication of the anthrax threat to Postal Service employees and actions
being taken to ensure employees’ safety and health (Project Number 02YG001LH000).
We conducted fieldwork at selected locations within the Capital Metro Area. Our
background, objective, scope, methodology, and locations visited are discussed in
Appendix A.

Results

We commend the communication efforts, safety, and corrective actions taken by the
Postal Service. On the basis of the sites we visited, we concluded the Postal Service
communicated an extensive amount of information received from health experts and
took several actions to ensure employees’ safety and health. Additionally, the Postal
Service has initiated worksite evaluations, which we believe will further protect
employees and provide an approach to addressing any future bioterrorist attacks.

Communication to Employees. The Postal Service established a National Operation
Center at headquarters, which disseminated health and safety information about
anthrax to Postal Service officials nationwide. These officials then provided information
to area and district offices that in turn disseminated it down to employees in a variety of
ways that included:

   •   Safety talks
   •   Videos
   •   Visits by public health officials
   •   Internet/Intranet




                                      Restricted Information
Review of the Postal Service’s Communication of Employee                                                    LH-MA-02-002
 Safety and Health Issues at Selected Locations




The Postal Service continues to communicate new and updated information as it is
received, although the volume and frequency of the information has decreased
significantly.

Safety Actions. Responding to concerns pertaining to anthrax has been the Postal
Service’s top priority since early October 2001 when officials became aware that this
biologically hazardous material was processed through the Postal Service system.
Postal Service officials have been, and remain, in consultation with federal, state, and
local safety, health, and medical experts to identify and implement measures to reduce
employees’ potential exposure to anthrax. In addition, based on recommendations from
health experts, the Postal Service has purchased personal protective equipment and
other items to provide protection from exposure to anthrax. This includes the
nationwide distribution of impermeable gloves and respirators approved by the National
Institute for Occupational Safety and Health. The Postal Service also prohibited the use
of compressed air for cleaning machinery, and is currently in the process of purchasing
high-efficiency particulate air filter vacuum cleaners for many facilities.

Worksite Evaluations. On October 31, 2001, the Centers for Disease Control and
Prevention released a Health Advisory titled, CDC Interim Recommendations for
Protecting Workers from Exposure to Bacillus Anthracis in Work Sites Where Mail is
Handled or Processed. It recommended that Postal Service safety personnel conduct
worksite evaluations of jobs, tasks, and operations encompassing work at all facilities.1
The Health Advisory was provided to assist safety personnel with developing a
comprehensive program to protect workers from anthrax and provided a long-term
approach to addressing future instances of bio-terrorist attacks. On December 11,
2001, we discussed the results of our audit work with Postal Service officials at
headquarters and recommended they follow the Centers for Disease Control and
Prevention Health Advisory to conduct worksite evaluations to determine what
measures would be appropriate to protect employees from future threats of anthrax.

Corrective Actions Taken. Based on our recommendation, the Postal Service began
actions to conduct worksite evaluations. Specifically, on December 18, 2001, plans
were initiated to conduct evaluations of Postal Service facilities. A Postal Service
official told us worksite evaluations should be completed by April 2002 with a final report
issued by May 2002. The report will:

    •    Determine Risk. Classify the risk to Postal Service employees by operations or
         tasks using the Occupational Safety and Health Administration’s Risk Reduction


1
  Postal Service facilities are described as post offices, mail distribution/handling centers, bulk mail centers, airmail
facilities, priority mail processing centers, public and private mailrooms, and other settings in which workers are
responsible for the handling and processing of mail.




                                                              2
                                                 Restricted Information
Review of the Postal Service’s Communication of Employee’s                    LH-MA-02-002
 Safety and Health Issues at Selected Locations



       Matrix. This matrix was developed to offer basic advice and suggest protective
       measures to reduce the risk of exposure of anthrax in the workplace.

   •   Identify Existing and Additional Control Measures. Identify the existing control
       measures that will protect Postal Service employees from anthrax or other
       bio-terrorism agents and additional control measures, if any, that will further
       reduce potential exposure.

   •   Identify and Rank Bio-terrorism Agents. Rank bio-terrorism agents in terms of
       likelihood of dissemination via the mail.

Postal Service officials also told us they will coordinate their efforts with experts in
health and safety agencies. Because the Postal Service has engaged in these activities
and they meet the intent of our early recommendation to them, there are no
recommendations in this report.

Management’s Comments

Management said that the Postal Service would continue to work to provide all
employees a safe working environment and communicate essential matters to protect
them from future attacks from anthrax or any other bioterrorist hazards. Management
comments, in their entirety, are included in Appendix B of this report.

Evaluation of Management’s Comments

Management’s comments are responsive and address the issues identified in the
report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at 214-775-9114, or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment




                                                   3
                                        Restricted Information
Review of the Postal Service’s Communication of Employee’s       LH-MA-02-002
 Safety and Health Issues at Selected Locations



cc: John A. Rapp
    Richard J. Strasser, Jr.
    Naomia A. Bourdon
    Julia E. Szarek
    Paulette A. Otto
    Deborah A. Meade
    John R. Gunnels




                                                   4
                                        Restricted Information
Review of the Postal Service’s Communication of Employee’s                     LH-MA-02-002
 Safety and Health Issues at Selected Locations




                      APPENDIX A
    BACKGROUND AND OBJECTIVE, SCOPE, AND METHODOLOGY
Background

The Centers for Disease Control and Prevention, on behalf of the Department of Health
and Human Services, is responsible for providing national leadership in the public
health and medical communities to prevent illnesses, including those that could occur
as a result of bio-terrorism. In addition, the Occupational Safety and Health
Administration is involved in the anthrax crisis because their mission is to save lives,
prevent injuries, and protect the health of America's workers. At the time of our audit,
neither the Occupational Safety and Health Administration nor the Postal Service had
mandated the use of personal protection equipment by employees. Instead, the use of
such equipment was voluntary for employees, based on information provided to them by
Postal Service officials who received the information from various health experts.

In a November 13, 2001, letter to the Chairman, Committee on Appropriations, United
States Senate, the postmaster general, John E. Potter, stated that the Postal Service
has spent $16.8 million for protection from anthrax such as gloves and masks, and
identified $33.2 million as the total amount needed to purchase protective equipment for
employees.

On October 4, 1999, the Postal Service published Emergency Response to Mail
Allegedly Containing Anthrax, Management Instruction EL-860-1999-3, which
prescribes actions that should be taken to effectively deal with mail allegedly containing
anthrax. Further, the March 12, 2001, Management Instruction, Personal Protective
Equipment and Respiratory Protection Programs, states that the Postal Service is
required to conduct a hazard assessment of the workplace to determine if hazards are
present, or are likely to be present, that necessitate the use of personal protective
equipment to protect employees from hazards, including anthrax, to the eyes, face, and
head.

Objective, Scope, and Methodology

Our overall objective was to evaluate the Postal Service’s communication of the anthrax
threat and policies and procedures to address the threat throughout the Postal Service
and actions taken to ensure employees’ safety and health. Specifically, we were to
determine if the Postal Service:

   1. Effectively and sufficiently communicated issues related to biological hazardous
      material throughout the Postal Service.

   2. Took effective actions to protect employees’ safety and health.


                                                   5
                                        Restricted Information
Review of the Postal Service’s Communication of Employee’s                        LH-MA-02-002
 Safety and Health Issues at Selected Locations




   3. Had policies and procedures in place to address the threat.

We are addressing sub-objectives 1 and 2 in this report. We will address
sub-objective 3 in another report.

To evaluate the effectiveness and sufficiency of the communication of issues related to
biological hazardous material, we gathered data from headquarters and the nine area
offices to obtain an understanding of the information sent out to the field, facilities, and
employees. We obtained copies of email messages, fact sheets, safety videos, and
congressional statements. We also reviewed the Centers for Disease Control and
Prevention Interim Recommendations for Protecting Workers from Exposure to Anthrax
in Work Sites where Mail is Handled or Processed, and the Occupational Safety and
Health Administration’s Workplace Anthrax Exposure Guidance. We visited safety and
health experts from the Centers for Disease Control and Prevention in Atlanta, Georgia,
to discuss their recommendations and also contacted safety officials from the
Occupation Safety and Health Organization to further discuss safety measures related
to protecting employees from anthrax exposure.

To identify the effectiveness of actions to protect employees’ safety and health actions,
we selected five facilities within the Capital Metro Area and judgmentally conducted
interviews with employees. We visited three processing facilities (Merrifield, Dulles, and
Baltimore) and two stations (Friendship and Southwest). All five facilities were
previously tested for anthrax in the workplace and results from the three processing
facilities were negative but the two stations tested positive. At the time of our visit to the
stations, the sites had been cleaned and declared clear of anthrax.

We also conducted interviews with safety personnel at headquarters and reviewed
Postal Service’s documentation on the Interim Guidelines for Sampling, Analysis,
Decontamination, and Disposal of Anthrax for U.S. Postal Service Facilities, and the
Management Instruction EL-860-1999-3; Emergency Response to Mail Allegedly
Containing Anthrax, dated October 4, 1999.

We conducted our review from November 2001 to February 2002, in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.




                                                   6
                                        Restricted Information
Review of the Postal Service’s Communication of Employee’s       LH-MA-02-002
 Safety and Health Issues at Selected Locations




                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                   7
                                        Restricted Information
